                                                         IG-00-005




AUDIT
                            X-38/CREW RETURN VEHICLE PROJECT
REPORT                                 MANAGEMENT

                                      February 9, 2000




                           OFFICE OF INSPECTOR
National Aeronautics and
                           GENERAL
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800) 424-9183,
(800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to the NASA
Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html
______________________________________________________________________________________________________

Acronyms

CRV         Crew Return Vehicle
ISS         International Space Station
NPG         NASA Procedures and Guidelines
W                                                                                     February 9, 2000


TO:              A/Administrator

FROM:            W/Inspector General

SUBJECT:         INFORMATION: Audit of X-38/Crew Return Vehicle Project Management Report
                 Number IG-00-005



The NASA Office of Inspector General has completed an audit of the X-38/Crew Return Vehicle
(CRV) Project management. We found that X-38/CRV Project management has been generally
effective, but the Project’s strategy entails significant risk in return for a potentially high payoff. The X-
38/CRV Project is responding to a challenge by the NASA Administrator to demonstrate that human-
rated spacecraft can be developed faster and for a fraction of the cost of previous projects. The X-
38/CRV Project is relying on a high degree of concurrency among design, development, test and
engineering/evaluation activities and a highly optimistic schedule for accomplishing development and
production of the CRV. The Project’s reliance on a high degree of concurrency among design,
development, test, and engineering/evaluation activities warrants a greater emphasis on risk and
performance management than is required by NASA Procedures and Guidelines (NPG) 7120.5A and
warrants the use of performance metrics and criteria for key Project phases.

Background

The United States is committed to providing a crew return capability for the International Space Station
(ISS) in the event of crew injury/illness, ISS failure, or Space Shuttle unavailability. The X-38/CRV is
NASA’s project to meet this commitment. The Johnson Space Center is the lead for the X-38/CRV.
The purpose of this project is to develop an operational CRV for the ISS for a fraction of the cost of
previous human spacecraft projects. This goal is to be achieved through a series of low-cost, rapid
prototype vehicles that are designated X-38. NASA is designing, building, and conducting the initial
flight tests of the X-38 and will use a contractor to build the CRV. As of January 2000, the Project’s
budget was $124.3 million for the X-38 segment and $952 million for the CRV segment.
                                                                                                       2

Recommendation

We recommended that NASA management develop and document entry/exit criteria for progressing
through the major Project phases, as required by NPG 7120.5A and as warranted by the high risk and
importance of the X-38/CRV Project.

Management Response and OIG Evaluation

Management concurred with the finding and recommendation. The X-38/CRV Project has developed
criteria for progressing through major Project phases. These criteria will be approved in February 2000
at the ISS Integration Control Board and documented in April 2000 in the X-38/CRV Project Plan
Update.

The actions taken and planned by management are responsive to the recommendation. Developing,
approving, and documenting the entry/exit criteria for progressing through the major Project phases help
assure that technical, schedule, and cost goals will be met.

[Original signed by]

Roberta L. Gross

Enclosure
Final Report on Audit of X-38/Crew Return Vehicle Project Management
           FINAL REPORT
AUDIT OF X-38/CREW RETURN VEHICLE
      PROJECT MANAGEMENT
W                                                                         February 9, 2000



TO:              M/Associate Administrator for Space Flight
                 AA/Director, Lyndon B. Johnson Space Center

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:         Final Report on the Audit of X-38/Crew Return Vehicle Project Management
                 Assignment Number A9900201
                 Report Number IG-00-005


The subject final report is provided for your information and use. Please refer to the Results in Brief for
the overall results. Our evaluation of your response is incorporated into the body of the report. Your
comments on a draft of this report were responsive to the recommendation. The recommendation will
remain open for reporting purposes until corrective action is completed. Please notify us when action
has been completed on the recommendation.

If you have questions concerning the report, please contact Mr. Dennis E. Coldren, Program Director,
Human Exploration and Development of Space Audits, at (281) 483-4773, or Mr. Len Diamond,
Audit Program Manager, at (321) 867-4531. We appreciate the courtesies extended to the audit staff.
The final report distribution is in Appendix E.



[Original signed by]

Russell A. Rau

Enclosure

cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
bcc:
AIGA, IG, Reading Chrons
W/D. Coldren
  L. Diamond
JSC/BD5/Audit Liaison Representative
Douglas_A_Comstock@OMB.eop
                                   NASA Office of Inspector General

IG-00-005
 A9900201                                                                                               February 9, 2000
                       X-38/Crew Return Vehicle Project Management
Introduction
The NASA Office of Inspector General performed this audit during an early part of the X-38/Crew
Return Vehicle (CRV) Project (the Project), specifically, during the X-381 phase and before the CRV
phase. Critical parts of each phase of the Project are being accomplished concurrently. Johnson Space
Center (Johnson) is the lead center for the Project. As of January 2000, the Project’s budget was
$124.3 million for the X-38 segment and $952 million for the CRV segment.2

Our overall objective was to evaluate the effectiveness of Project management (see Appendix A). We
have issued a report on the need for planning an operational test of the CRV. 3

Results in Brief
X-38/CRV Project management has been generally effective, but the Project’s rapid prototyping
strategy entails significant risk in return for a potentially high payoff as compared to the traditional
approach of sequential design, development, test, and engineering/evaluation. To reduce risk and
increase assurance of meeting the crew return capability commitment, Johnson should develop criteria
by which to measure readiness to progress through major Project phases. The criteria should include
performance metrics and alternative actions or strategies. Absent such criteria, the Project risks not
achieving the maturity necessary to move to subsequent Project phases. Management concurred with
the recommendation. The X-38/CRV Project Office developed entry/exit criteria for progressing
through the major Project phases. The ISS Program Manager will approve the criteria at the Space
Station Integration Control Board and document it in the X-38/CRV Project Plan Update.

Our overall audit results related to specific subobjectives are summarized in Appendix B.




1
  The X-38 is NASA’s in-house activity to develop an experimental CRV using a lifting body spacecraft.
2
  The X-38 is funded by the Space Flight Advanced Projects appropriation ($92.3 million) and the International Space Station
(ISS) appropriation ($32 million). The CRV is funded by the Space Flight Advanced Projects appropriation ($6 million) and the
ISS appropriation ($946 million). This budget represents an increase of $26 million for the X-38 and a decrease of $189 million
for the CRV compared to the August 1999 budget referenced in our draft audit report. This budget also represents a reduction of
$94 million from the Project’s fiscal year 2000 budget request of $148 million, additional X-38 work to be performed, and
spending limitations by the Office of Management and Budget. On December 23, 1999, NASA reported to the Committee on
Science that the spending limitations may result in delays to CRV Phase 1 contract awards and delivery of the CRV to the ISS and
that additional steps may be taken to alleviate the delays.
3
  Report Number IG-99-036, “X-38/Crew Return Vehicle-Operational Testing,” September 20, 1999.
Background
The United States is committed to providing a crew return capability as part of the international
memorandum of understanding for the International Space Station (ISS). The crew return capability is
to be used in the event of crew injury/illness, ISS failure, or Space Shuttle unavailability. The X-
38/CRV is NASA’s project to meet the commitment using a lifting body concept. The concept includes
a reusable deorbit module for atmospheric entry to 23,000 feet and a parafoil for the final descent and
landing of up to seven crew members. NASA is designing, building, and conducting the initial flight tests
of the X-38 and will use a contractor to build the CRV. Two significant vehicle changes have taken
place. Specifically, the vehicle capacity has been increased to accommodate seven rather than four
crew members, and the vehicle height has been reduced to allow for possible modification to a crew
transfer vehicle4 or an orbital transfer vehicle.5

Johnson’s X-38/CRV lead Center responsibility is supported by NASA’s Ames Research Center,
Dryden Flight Research Center, Glenn Research Center, Goddard Space Flight Center, Kennedy
Space Center, Langley Research Center, and Marshall Space Flight Center for testing, launch,
components, analysis, and consultation. The Department of the Army, Department of the Air Force,
Department of Energy, European Space Agency, and German National Space Agency are providing
test support, simulation access, consulting, components, software, and structural parts. The X-38/CRV
funding covers the acquisition of four X-38 vehicles, four CRV’s, two berthing/docking modules, and
one set of spare parts; the funding does not include the costs of Space Shuttle launches or logistics.

Project Management and Risk

Finding. The X-38/CRV Project strategy, known as “rapid prototyping,”6 responds to a challenge by
the NASA Administrator to demonstrate that human-rated spacecraft can be developed faster and for a
fraction of the cost of previous projects.7 As a result, the X-38/CRV Project is relying on a high degree
of concurrency among design, development, test, and engineering/evaluation activities and a highly
optimistic schedule to accomplish development and production of the CRV. While this Project
approach offers potential high payoff, the approach negatively affects the ability to accurately adhere to
project cost and schedule. Therefore, Johnson needs to focus additional attention on risk and
performance management including the use of performance metrics and criteria needed for key Project
decision points.8 The Project’s high concurrency warrants more risk management than current NASA
policy requires.




4
  A crew transfer vehicle would transfer a replacement crew member(s) from Earth to a vehicle in space and/or return a retiring
crew member(s) from a vehicle in space to Earth.
5
  An orbital transfer vehicle would transfer a crew member(s) from one vehicle in space to another vehicle in space.
6
  Rapid prototyping allows project maturation through fault detection and analysis during system development rather than after
system development.
7
  The Administrator termed this approach “faster, better, cheaper.”
8
  The documented support needed to exit from and enter each Project phase.

                                                               2
Faster, Better, Cheaper Projects' Failure Rates. In August 1999, the Aerospace Corporation9
issued a technical paper that analyzed the faster, better, cheaper approach compared to the traditional
project approach in the area of small satellites. The technical paper stated that the faster, better,
cheaper projects were more effective in terms of time, total cost, flight rate, and cost-effectiveness as
compared to the traditional projects. However, the faster, better, cheaper
projects had higher full and partial failure rates of 28 percent and 44 percent, respectively, in
comparison to full and partial failure rates of 10 percent and 30 percent, respectively, for traditional
projects.10

Assessment Office Review of the X-38/CRV. NASA’s Independent Program Assessment Office
(the Assessment Office)11 determined that the X-38/CRV Project rapid prototyping approach offers
great promise to save up to $1 billion12 over the traditional approach. The Assessment Office identified
five rapid prototype projects13 it characterized as failures and attributed the failures to a lack of project
maturity. The Assessment Office review of the X-38/CRV Project identified 102 risk items of which 51
were characterized as high-risk items. The Assessment Office characterized the Project schedule as
high risk but achievable and concluded that the high-risk items raise concern that achieving the maturity
needed to enter production would not be achieved within the Project schedule. The Project Office is
addressing the risk items. On March 15, 1999, the Assessment Office recommended the commercial
practice of establishing a maturity gate14 prior to Phase 1 – contract awards. The Associate
Administrator for Space Flight and the Project Manager are ensuring that the risk items are resolved or
scheduled for resolution prior to Phase 1 contract awards.

Evaluation Requirement. NASA Procedures and Guidelines (NPG) 7120.5A, “NASA Program
and Project Management Processes and Requirements,” April 3, 1998, addresses the evaluation
subprocess. The evaluation subprocess supports the initial approval and continues to provide project
progress assessment by the customer, experts, and stakeholders. The evaluation subprocess is an
assessment of the project’s ability to meet commitments and recommendations for proceeding with,
modifying, or terminating the project. The evaluation subprocess is to occur throughout the life cycle of
the project to ensure the successful completion of each phase.

NASA Team Assessing Need for Guidance. The NASA Administrator has established a team15 to
study the nontraditional faster, better, cheaper approaches such as rapid prototyping for programs and

9
 The Aerospace Corporation is a private, nonprofit corporation that is exclusively scientific and provides research, development,
and advisory services to the Space and Missile Systems Center of the Air Force Materiel Command and other agencies,
international organizations, and governments in the national interest.
10
   NASA was not required to and did not comment on or respond to the Aerospace Corporation technical paper.
11
   At the direction of the NASA Chief Engineer, the Assessment Office at Langley Research Center performs objective,
nonadvocate reviews of NASA programs and projects.
12
   The amount is based on the Assessment Office-developed cost using its estimating model.
13
   The projects were Advanced Research and Global Observation Satellite, Space Technology Experiment Program, Miniature
Sensor Technology Integration, Commercial Global Phone, and Pegasus.
14
   A “gate” is a term the Assessment Office uses to indicate an action that must be completed before proceeding to the next step
(for example, contract award).
15
   The team includes NASA, industry, and university representatives.

                                                                3
projects. The team is studying the programs and projects that worked and those that did not in order to
establish guidance that the Agency can institutionalize. The guidance would include recommended
action for necessary changes to NPG 7120.5A to fulfill the Administrator’s concept of doing business
faster, better, and cheaper. The team’s report is due to NASA Headquarters mid-February 2000.

Risk Management and Performance Management. NPG 7120.5A addresses the importance of
executing projects “faster, better, cheaper” and correlates the use of special techniques with the
Government's streamlined, new ways of doing business. The NPG requires program and project
managers to identify, analyze, prioritize, mitigate, control, and assure communication of risks to all levels
of a program/project. The NPG also requires program and project managers to establish effective
mechanisms for tracking and maintaining successful performance, to include performance assessment,
schedule management, and process metrics. The NPG does not currently differentiate between risk and
performance management applicable to traditional programs and projects as compared to “faster,
better, cheaper” ones. However, the higher full and partial failure rates of “faster, better, cheaper”
programs and projects warrant a greater emphasis on risk and performance management than is
generally required by the NPG so as to assure program and project success.

Major Project Decision Points. The Project Manager identified the following major or key decision
points in the X-38/CRV Project life cycle:

•   Award to the Phase 1 contractors.

•   Certification of Flight Readiness of X-38 Vehicle 201 for the space flight test.

•   Award to the Phase 2 contractor.

•   Certification of Flight Readiness of the CRV for delivery to the ISS.

Development of criteria to support exit from and entry to each of these phases will facilitate the
evaluation subprocess relative to the decision for proceeding with, modifying, or terminating the
Project.

Management Action Necessary to Strengthen Evaluation Subprocess. The major project
decision points constitute exit from and entry into particular project phases and are similar to the
maturity gates referred to by the Assessment Office. To mitigate the Project risks, to track and
maintain successful performance, and to support the evaluation subprocess, the Project Office should
develop and document the major characteristics, criteria, and strategies relative to moving through the
Project phases.




                                                     4
Recommendation, Management’s Response, and Evaluation of Response

The Director, Johnson Space Center, should develop and document the major characteristics,
criteria, and strategies for progressing through major Project phases, as required by
NPG 7120.5A and as warranted by the high risk and importance of the X-38/CRV Project.

Management’s Response. Concur. The X-38/CRV Project Office has developed specific criteria
for progressing through the Project phases. These criteria will be approved in February 2000 at the
Space Station Integration Control Board and will be documented in the April 2000 X-38/CRV Project
Plan Update.

Evaluation of Management’s Response. The actions planned by management are responsive to the
recommendation. The recommendation is resolved but will remain undispositioned and open for
reporting purposes until corrective action is completed. The complete text of management’s comments
is in Appendix D.




                                                 5
                    Appendix A. Objectives, Scope, and Methodology

Objectives

Our overall objective was to audit management effectiveness of the X-38/CRV Project. Specifically,
we evaluated project approval, project plan feasibility, project plan scheduling, project testing and flight
testing, project inclusion of program requirements, project consideration of the CRV for use as a crew
transfer vehicle; and technology information export controls.16 Details on our audit results for these
areas are in Appendix B.

Scope and Methodology

Our audit included visits to Johnson X-38/CRV facilities, attendance at a Flight Readiness Review, and
observance of a free-flight17 test of an X-38 at Dryden Flight Research Center. We examined project
records and documentation, dated August 1998 through October 1999, to evaluate whether plans and
actions were reasonable. Specifically, we:

     •   Reviewed NASA policies and procedures, ISS program requirements, the Federal Acquisition
         Regulation, and Draft Requests for Proposal.

     •   Interviewed Project Office and various review team personnel. 18

     •   Examined the review team's reports on the X-38/CRV Project and the ISS Program.

Management Controls Reviewed

We reviewed management controls relative to the Project. Specifically, we reviewed the controls
established in NPG 7120.5A relative to project approval and the evaluation subprocess. Those
management controls were effective except that the control related to the evaluation subprocess requires
management attention and is addressed in this report.

Audit Field Work

We performed audit field work for this report from August through October 1999. We performed the
audit work in accordance with generally accepted government auditing standards.




16
   We did not evaluate project-manifesting plans because it was too early for any substantive actions to have begun.
17
   Free-flight refers to an unpowered glide of an X-38 after it is carried and dropped from a B-52 aircraft.
18
   The personnel of the NASA Advisory Council/Cost Assessment and Validation Task Force, Independent Program Assessment
Office, and Aerospace Safety Advisory Panel.

                                                           6
                            Appendix B. Audit Subobjectives Results

Project Approval. NPG 7120.5A provides guidance for the structure of the project plan. The X-
38/CRV Project began in 1995 and because of its high visibility, was later made subject to review by
the NASA Program Management Council19 and the requirements of NPG 7120.5A. We reviewed the
X-38/CRV Project Plan, which was approved in August 1998, and concluded it fulfilled the
requirements of NPG 7120.5A with two exceptions, which had been noted by the Assessment Office.
During March 1999, the Assessment Office identified a need for updating the current project status to
begin September 1999 and for development of a Risk Management Plan to be completed by
September 1999. Therefore, we are not making additional recommendations in this area.

Project Plan Feasibility. The X-38/CRV project approach contains risk in that it deviates from the
traditional design, development, test, and engineering/evaluation approach. The traditional approach is a
long, sequential process with flight testing being primarily performed on the operational vehicle. The X-
38/CRV Project approach responds to a NASA Administrator challenge to demonstrate that human
spacecraft could be developed for less cost than previous projects. Other reasons for the approach
were ISS annual funding ceilings, receipt of Office of Management and Budget CRV Project approval
and funding, and the required CRV delivery date to the ISS. The Project approach uses: (1) the
proven characteristics of U.S. Air Force X-23/X-24A lifting body;20 and (2) rapid prototyping, with
testing and revisions in later prototypes. Project approaches and elapsed times are contained in the
draft requests for proposals. Aerospace companies have reviewed the Phases 1 and 2 draft requests
for proposals and have not questioned the Project approaches or elapsed time. We concluded that the
approaches and projected elapsed times are reasonable and feasible.

Project Plan Schedule. As of June 1999, CRV #1 was scheduled for delivery to the ISS in May
2004. The Project schedule was proceeding on the following milestones:

•    October 1999 – Award Phase 1 contracts to two or more contractors to assess X-38 capability
     and CRV design requirements, participate in development of ground tests, and develop cost
     proposals for Phase 2.

•    September 2001 – Conduct X-38 space flight test from the Space Shuttle.

•    January 2002 – Award Phase 2 contract to one contractor to design, develop, fabricate, test, and
     certify four CRV’s, berthing/docking adapters, and one set of spare parts.

•    January 2004 – Deliver first CRV to Kennedy Space Center.

•    May 2004 – Launch CRV #1 aboard Space Shuttle and deliver to ISS.


19
   The NASA Program Management Council is NASA’s Senior Management group, chaired by the Deputy Administrator, and is
responsible for reviewing and recommending approval of proposed programs and for overseeing their implementation according to
Agency commitments, priorities, and policies.
20
   The U.S. Air Force developed the lifting body concept in the 1960’s and 1970’s during its X-23 and X-24 Programs.

                                                             7
Appendix B

As of October 22, 1999, the latest budget actions would extend the referenced milestones by 8, 5, 9,
12, and 14 months, respectively.

Project Testing and Flight Testing. Testing has included captive-carry21 and free-flight tests of
scaled-down versions of the X-38 flown under the wing of a B-52 airplane and parafoil deployment
testing. Testing disclosures of high Project importance have included vibrations, delaminating,22 laser
pyrotechnic23 ineffectiveness, and parafoil operation. Project Office reports showed that testing was
producing desired results in terms of proof of concept and identification of characteristics requiring study
and revision. During this audit, we reported24 a condition identified by three review teams that pertains
directly to ISS crew safety and the lack of planning or provision for an operational CRV flight test.

Project Inclusion of Program Requirements. Space Station Program CRV Requirements
Document 50306 identifies 16 CRV top-level requirements. See Appendix C for details. The Project
addresses all 16 requirements. Fourteen of the requirements will be validated in both the X-38 and
CRV project portions. The remaining two, all-attitude separation25 and separation within 3 minutes, will
be validated only in the CRV project portion.

Project Consideration of the CRV for use as a Crew Transfer Vehicle. The Project Office is
developing the X-38/CRV to strictly meet the crew return requirements as opposed to any additional
function, such as crew transfer. This best serves the Program and the Project success by not increasing
complexity, schedule, and cost beyond what is necessary to meet the U.S. commitment and the ISS
defined requirement. The Project Office has modified the X-38 design, including a reduction of vehicle
height, so that consistent with the U.S. and European Space Agency agreement, the vehicle, with
modification, can be attached to and launched on an expendable launch vehicle. A crew transfer vehicle
or an orbital transfer vehicle may ultimately be derived from the X-38/CRV investment and technology
but not in a manner that adversely affects the Program or the Project.

Technology Information Export Controls. NASA signed Memorandums of Understanding with
German Aerospace Center and the European Space Agency for the X-38/CRV Project during
February and July 1999, respectively. NASA staffed the requirements in the




21
   Captive-carry refers to a test in which the X-38 test vehicle is attached to a NASA B-52 aircraft for the entire flight test.
22
   Disengaging of layers that had been affixed to each other.
23
   Actuation by laser firing.
24
   Report Number IG-99-036, “X-38/Crew Return Vehicle-Operational Testing,” September 20, 1999.
25
   CRV ability to separate from the ISS irrespective of the ISS position.

                                                                   8
                                                                                                                 Appendix B

memorandums with the State Department and other Federal agencies. The memorandums require that
notifications must accompany the transfer of technical data that are proprietary or subject to export
controls and must specify the entities authorized to receive that data. The X-38/CRV Project and
aspects that involve cooperation with other Government partners lend to the potential for technology
gains to foreign partners. An X-38 Project Review Board Report, May 1998, states that the
partnership is reducing near-term cost of the X-38 and CRV to NASA and the U.S. taxpayer. The
report further states that with this gained knowledge and after human-rating26 of the Ariane 5,27 the
Europeans would have an important crew transfer capability they have desired for years. NASA has
implemented the requirement to protect technology information with respect to entities outside the
cooperative agreement, while the parties to the agreement can yield significant technological gains with
respect to a vehicle that will provide human access to space.




26
   A term used for a space system that incorporates design features, operational procedures, and requirements necessary to
accommodate human participants.
27
   The Ariane 5 is a French expendable launch vehicle.

                                                               9
                      Appendix C. X-38/CRV Top-Level Requirements

                                                                                                        X-38
                                         Requirement                                                    and          CRV
                                                                                                        CRV          Only

    Minimum of Single Fault Tolerant1 at the end of 3-year, on-orbit duration                             X           --

    Minimum Mission Reliability of .99                                                                    X           --

    System Availability of 95 percent over 3-year, on-orbit mission                                       X           --

    Capable of autonomous flight operations and landing                                                   X           --

    Dry Land Touchdown                                                                                    X           --

    Shirtsleeve Operation2                                                                                X           --

    All Attitude Separation3                                                                              --          X

    Separation within 3 minutes                                                                           --          X

    Supports medical mission timeline                                                                     X           --

    Operated in the English language                                                                      X           --

    Supports 7 crew members of 95th percentile American male4                                             X           --

    Peak sustained gravity forces of less than +/-4 gravity forces                                        X           --

    Two-way communication with the ground                                                                 X           --

    Minimum on-orbit life of 3 years                                                                      X           --

    Landing accuracy of 5 nautical miles radius circular error probability                                X           --

    Launch aboard Space Shuttle                                                                           X           --


1
  Critical systems designed so that no single failure shall cause loss of the crew.
2
  Not requiring special, protective clothing.
3
  CRV ability to separate from the ISS irrespective of the ISS position.
4
  Able to accommodate seven persons of a size and weight up to that of 95 percent of the American male population.

                                                             10
Appendix D. Management’s Response




               11
Appendix D




             12
     Appendix D




13
Appendix D




             14
                              Appendix E. Report Distribution


National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight

NASA Advisory Officials

Chair, NASA Aerospace Safety Advisory Panel
Chair, NASA Advisory Council
Chair, Advisory Committee on the International Space Station
Chair, Aeronautics and Space Transportation Technology Advisory Committee

NASA Centers

Director, Dryden Flight Research Center
Director, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
 Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 Management and Budget
Associate Director, National Security and International Affairs Division, Defense Acquisitions
 Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space




                                                   15
Appendix E


Chairman and Ranking Minority Member - Congressional Committees and Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science


Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                                 16
                        NASA Assistant Inspector General for Auditing
                                       Reader Survey


The NASA Office of Inspector General has a continuing interest in improving the usefulness of our
reports. We wish to make our reports responsive to our customers’ interests, consistent with our
statutory responsibility. Could you help us by completing our reader survey? For your convenience,
the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector General for
Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: X-38/Crew Return Vehicle Project Management

Report Number:                                             Report Date:


Circle the appropriate rating for the following statements.

                                                          Strongl                              Strongl
                                                             y      Agree   Neutra   Disagre   y         N/A
                                                          Agree               l         e      Disagre
                                                                                                  e
1.   The report was clear, readable, and logically           5       4        3         2         1      N/A
     organized.
2.   The report was concise and to the point.                5       4        3         2         1      N/A
3.   We effectively communicated the audit objectives,       5       4        3         2         1      N/A
     scope, and methodology.
4.   The report contained sufficient information to          5       4        3         2         1      N/A
     support the finding(s) in a balanced and objective
     manner.


Overall, how would you rate the report?

         Excellent               Fair

         Very Good               Poor

         Good


If you have any additional comments or wish to elaborate on any of the above responses,
please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

        Congressional Staff                        Media
        NASA Employee                              Public Interest
        Private Citizen                            Other:
        Government:              Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                                     No: ______
Name:
____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to this Report

Dennis E. Coldren, Program Director, Human Exploration and Development of Space Audits

Len Diamond, Audit Program Manager

Dennis Clay, Auditor

Kenneth Sidney, Auditor

June C. Glisan, Program Assistant

Nancy C. Cipolla, Report Process Manager
